No. 21-84

In the

Supreme Court of the United States
♦
FOUNDATION FOR INDIVIDUAL RIGHTS IN EDUCATION, ET AL.
Petitioner,
v.
VICTIM RIGHTS LAW CENTER, ET AL.,
Respondent.
CERTIFICATE OF COMPLIANCE As required by Supreme Court Rule 33.1(h), I

certify that the Brief of Amicus Curiae Mountain States Legal Foundation’s Support
of Petitioner contains 5,285 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 20, 2021
/s/ Cristen Wohlgemuth
Cristen Wohlgemuth
Counsel of Record
MOUNTAIN STATES
LEGAL FOUNDATION
2596 South Lewis Way
Lakewood, Colorado 80227
(303) 292-2021
cristen@mslegal.org
August 20, 2021

Attorney for Amicus Curiae

